<html>
<title> - SYRIA FREEDOM SUPPORT ACT; HOLOCAUST INSURANCE ACCOUNTABILITY ACT OF 2011; EXPORT PROMOTION REFORM ACT; COUNTERING IRAN IN THE WESTERN HEMISPHERE ACT OF 2012; EXPORT PROMOTION REFORM ACT; AND EXPRESSING THE SENSE OF CONGRESS THAT TAIWAN SHOULD BE ACCORDED OBSERVER STATUS IN THE INTERNATIONAL CIVIL AVIATION ORGANIZATION (ICAO)</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 SYRIA FREEDOM SUPPORT ACT; HOLOCAUST INSURANCE ACCOUNTABILITY ACT OF 
   2011; EXPORT PROMOTION REFORM ACT; COUNTERING IRAN IN THE WESTERN 
HEMISPHERE ACT OF 2012; EXPORT PROMOTION REFORM ACT; AND EXPRESSING THE 
SENSE OF CONGRESS THAT TAIWAN SHOULD BE ACCORDED OBSERVER STATUS IN THE 
            INTERNATIONAL CIVIL AVIATION ORGANIZATION (ICAO)

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

 H.R. 2106, H.R. 890, H.R. 1410, H.R. 3783, H.R. 4041 and S. Con. Res. 
                                   17

                               ----------                              

                             MARCH 7, 2012

                               ----------                              

                           Serial No. 112-156

                               ----------                              

        Printed for the use of the Committee on Foreign Affairs













 SYRIA FREEDOM SUPPORT ACT; HOLOCAUST INSURANCE ACCOUNTABILITY ACT OF 
   2011; EXPORT PROMOTION REFORM ACT; COUNTERING IRAN IN THE WESTERN 
HEMISPHERE ACT OF 2012; EXPORT PROMOTION REFORM ACT; AND EXPRESSING THE 
SENSE OF CONGRESS THAT TAIWAN SHOULD BE ACCORDED OBSERVER STATUS IN THE 
            INTERNATIONAL CIVIL AVIATION ORGANIZATION (ICAO)

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

 H.R. 2106, H.R. 890, H.R. 1410, H.R. 3783, H.R. 4041 and S. Con. Res. 
                                   17

                               __________

                             MARCH 7, 2012

                               __________

                           Serial No. 112-156

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-277 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001
















                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, Florida
JEFF FORTENBERRY, Nebraska           DENNIS CARDOZA, California
MICHAEL T. McCAUL, Texas             BEN CHANDLER, Kentucky
TED POE, Texas                       BRIAN HIGGINS, New York
GUS M. BILIRAKIS, Florida            ALLYSON SCHWARTZ, Pennsylvania
JEAN SCHMIDT, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
BILL JOHNSON, Ohio                   FREDERICA WILSON, Florida
DAVID RIVERA, Florida                KAREN BASS, California
MIKE KELLY, Pennsylvania             WILLIAM KEATING, Massachusetts
TIM GRIFFIN, Arkansas                DAVID CICILLINE, Rhode Island
TOM MARINO, Pennsylvania
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 2106, To strengthen sanctions against the Government of 
  Syria, to enhance multilateral commitment to address the 
  Government of Syria's threatening policies, to establish a 
  program to support a transition to a democratically-elected 
  government in Syria, and for other purposes....................    14
  Amendment in the nature of a substitute to H.R. 2106 offered by 
    the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida, and chairman, Committee 
    on Foreign Affairs...........................................   116
  Amendment to the amendment in the nature of a substitute to 
    H.R. 2106 offered by the Honorable Ileana Ros-Lehtinen.......   206
  Amendment to the amendment in the nature of a substitute to 
    H.R. 2106 offered by the Honorable Howard L. Berman, a 
    Representative in Congress from the State of California......   226
H.R. 890, To allow for the enforcement of State disclosure laws 
  and access to courts for covered Holocaust-era insurance policy 
  claims.........................................................   231
  Amendment to H.R. 890 offered by the Honorable Ileana Ros-
    Lehtinen.....................................................   242
H.R. 1410, To promote freedom and democracy in Vietnam...........   243
  Amendment in the nature of a substitute to H.R. 1410 offered by 
    the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................   263
  Amendment to the amendment in the nature of a substitute to 
    H.R. 1410 offered by the Honorable Gerald E. Connolly, a 
    Representative in Congress from the Commonwealth of Virginia.   281
  Amendment to the amendment in the nature of a substitute to 
    H.R. 1410 offered by the Honorable Dana Rohrabacher, a 
    Representative in Congress from the State of California......   282
H.R. 3783, To provide for a comprehensive strategy to counter 
  Iran's growing presence and hostile activity in the Western 
  Hemisphere, and for other purposes.............................   283
  Amendment in the nature of a substitute to H.R. 3783 offered by 
    the Honorable Jeff Duncan, a Representative in Congress from 
    the State of South Carolina..................................   292
  Amendment to the amendment in the nature of a substitute to 
    H.R. 3783 offered by the Honorable Jeff Duncan...............   304
H.R. 4041, To amend the Export Enhancement Act of 1988 to further 
  enhance the promotion of exports of United States goods and 
  services, and for other purposes...............................   306
S. Con. Res. 17, A concurrent resolution expressing the sense of 
  Congress that Taiwan should be accorded observer status in the 
  International Civil Aviation Organization (ICAO)...............   312

                                APPENDIX

Markup notice....................................................   332
Markup minutes...................................................   333
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida: Prepared statements on H.R. 3783 and H.R. 
  2106...........................................................   335
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement on H.R. 1410...........   337
The Honorable Ann Marie Buerkle, a Representative in Congress 
  from the State of New York: Prepared statements on H.R. 2106 
  and H.R. 890...................................................   340
 SYRIA FREEDOM SUPPORT ACT; HOLOCAUST INSURANCE ACCOUNTABILITY ACT OF 
   2011; EXPORT PROMOTION REFORM ACT; COUNTERING IRAN IN THE WESTERN 
HEMISPHERE ACT OF 2012; EXPORT PROMOTION REFORM ACT; AND EXPRESSING THE 
SENSE OF CONGRESS THAT TAIWAN SHOULD BE ACCORDED OBSERVER STATUS IN THE 
            INTERNATIONAL CIVIL AVIATION ORGANIZATION (ICAO)

                              ----------                              


                        WEDNESDAY, MARCH 7, 2012

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:09 a.m. in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. 
Pursuant to notice, we meet today to mark up several bills, but 
before we proceed to business, I would like to take a few 
minutes in remembrance of one of our dear colleagues. As all of 
us know, Congressman Don Payne passed away yesterday back in 
his home State of New Jersey. I extend my deepest condolences 
to the Payne family and the New Jersey community and the New 
Jersey congressional delegation.
    Don, as all of us know, was a dedicated and effective 
advocate for global health and human rights during his 12 terms 
in Congress. He was chairman and ranking member of the 
Subcommittee on Africa, Global Health, and Human Rights. Don 
Payne worked tirelessly to fight the spread of deadly diseases 
such as HIV/AIDS, malaria, and tuberculosis. He was also an 
outspoken advocate against horrific human rights abuses in 
Africa and elsewhere.
    Throughout his 23 years in Congress, Don was an unfailingly 
kind and gracious colleague. My thoughts and prayers are with 
the Payne family during this difficult time. Congressman Payne 
will be greatly missed by our committee. I would like to extend 
the opportunity to all of our members or any member who would 
like to say some words about Mr. Payne, and I would like to 
recognize first the ranking member and my good friend from 
California, Mr. Berman, for any statements he would like to 
make.
    Mr. Berman. Well, thank you very much, Madam Chairman, for 
bringing up our loss at the beginning of the hearing and for a 
chance to pause for a moment and reflect on our friend and our 
colleague, and I think for many of us, I know for me, our 
teacher, Don Payne.
    Don distinguished himself as a leader on many important 
issues in his district, his State, this country, and throughout 
the world, and of course, those of us on the Foreign Affairs 
Committee knew Don. He really was one of the Nation's, not the 
Congress', the Nation's foremost experts on Africa. I 
personally know that I am wiser, more knowledgeable, and more 
informed on Africa issues because of Don. He was our professor, 
our mentor, our in-house librarian, our encyclopedia. We have 
all lost a champion for the underserved, a voice for the 
downtrodden, a voice for peoples and causes that are too often 
neglected.
    It was one of those situations, we always had a good and 
friendly relationship, but during the 3 years that I was 
fortunate enough to chair this committee, we became 
particularly close. He provided invaluable help in both helping 
to write and then to pass and to follow through on the 
implementation of our global HIV/AIDS, malaria, and 
tuberculosis reauthorization legislation which carried many 
reforms in an effort to improve, not just to deal with those 
horrible and deadly diseases, but to help to see meaningful 
reforms in the health care systems in so many countries around 
the world, and most particularly in Africa.
    His suggestion, along with our own staff's, led us to have 
the first chairman-led codel by the House Foreign Affairs 
Committee in the committee's history to sub-Saharan Africa, a 
trip that had a tremendous impact on me and I think on all the 
members who went. Congressman Royce was the ranking member on 
that trip where we really got out and saw and met and learned 
more than you can learn from any number of hearings. He was 
very special.
    Just one other story about Don. Don and I sometimes, we 
spent a lot of time together, we talked a lot about different 
issues. He was a--he believed in the U.S.-Israel relationship, 
but sometimes we had differences about, you know, the best 
approach on all these issues. Notwithstanding any of that, 
those differences, when it came time at the Security Council 
for the countries on the Security Council to vote on the issue 
of real true sanctions on Iran because of its nuclear weapons 
program and all the other reasons, Don got into that fight 
because he knew the Presidents personally and well of all the 
African countries that were on the Security Council at that 
time, and he personally called the leaders of those countries 
to lobby them to support the U.N.-sponsored--U.S.-sponsored 
resolution at the Security Council. Having an asset like that 
on our committee was a tremendous value. I am going to miss him 
a lot. I think all of us will. Janice and my family mourn 
alongside his children, his grandchildren, his brothers and his 
extended family, and he was a bright light that has been 
extinguished, but the issues he lived for will be his legacy, 
and thank you for giving me a chance to speak about our loss.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Berman. I 
would like to recognize a member of the New Jersey delegation 
who is the chairman of the Africa subcommittee and has worked 
with Don for so many years on these issues, Congressman Smith.
    Mr. Smith. Thank you very much, Madam Chair, and Howard 
Berman, Ranking Member. I want to associate myself with the 
remarks both of you have made, very eloquent and very fitting 
for the loss of a great member of this committee, a good friend 
of Sub-Saharan Africa in particular, and a man who was truly 
expert, and as you said, Howard, knew so many Presidents and 
Prime Ministers and parliamentarians in Africa personally, not 
just in passing, not just a handshake, but knew them and knew 
them very well.
    You know, I think many of you know Don Payne got involved 
in politics at the ripe old age of 19. Although he was a coach, 
a football and a track coach, he also was a teacher, a high 
school teacher, but then he became a member of the council, the 
City Council in Newark, New Jersey, went on to what we call the 
Board of Chosen Freeholders, which is the county commissioners, 
and then got elected to Congress in 1988.
    He was a very hard working person, worked tenaciously for 
peace and reconciliation, especially on Sudan. All of those 
years when the killing fields occurred in southern Sudan with 
in excess of 2 million people, 4 million homeless, he was 
always raising his voice on behalf of the victims of the 
absolute feckless response of the international community to 
end that, especially in its early years. Then that conflict 
moved to Darfur, and again he was raising his voice as a 
champion of the Darfurians who were being exterminated through 
genocide.
    I would just end by saying, unlike the full committee where 
we need time limits, I don't use time limits when I have 
questions on behalf of the members, and I could tell you there 
were times when Don would go for a half hour and his wealth and 
breadth of knowledge when he would be talking to Johnnie 
Carson, the assistant secretary, asking questions was truly 
remarkable, and so, you know, we are going to deeply miss him. 
He is an expert who left his mark, and he was also, you know, 
on his other committee a great staunch believer in affordable 
education and access to education as being a very important 
part of America for all people regardless of race, ethnicity, 
or sex. But he also authored resolutions like Literacy Day, 
July 2nd, believing that if you want to bust the ceiling that 
holds back so many people, you have got to provide for more 
literacy and expand the ability to read and write to all 
Americans. So he really had a comprehensive and a profound 
impact on America, on his district, on our State, and we 
deeply, deeply miss him already. Thank you.
    Chairman Ros-Lehtinen. Thank you very much. Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chair. I do want to 
thank you for calling this special occasion to recognize one of 
our colleagues who has just passed away yesterday to say a few 
words. It is very difficult for me to be under the shadow of 
this great man for whom I have the utmost respect, and over the 
years that he and I have worked together, I can say that one of 
the beauties of American democracy is its diversity, and I 
remember some 23 years ago when we both became members of this 
committee, we had a little diversity caucus here because I, as 
a very proud American representing some 18 million Asian 
Pacific Americans in our country, I felt that there wasn't a 
voice to bring out the issues affecting our foreign policies 
toward the Asia Pacific region. I will be upfront with you, 
Madam Chair, 23 years ago when Don Payne and I first became 
members of this committee, to my excitement I wanted to see how 
great this was going to be. Hardly anyone wanted to be on the 
Asia Pacific and African subcommittees. And I then realized, I 
said, I shouldn't be surprised because the mentality in 
Washington 20 years ago was all toward Europe and the Middle 
East, the entire focus. When we talked about Asia Pacific 
issues, we weren't even on the radar screen, the importance of 
that region that affects our economic, political, and strategic 
interests, just as it is important that we should be talking 
about the continent of Africa, and over the years my colleague 
Don Payne has become the expert on dealing with African issues 
and how important that we should do this.
    Don Payne always reminded me of the statement that Martin 
Luther King Jr. once said years ago, In the end we will not 
remember the words of our enemies, but the silence of our 
friends. Don Payne always said, Eni, you have got to speak out, 
you have got to let it be known the issues that really affects 
the interests of the American people and how important it is 
the activities and the policies and all the things that are 
being discussed and debated in this committee does have an 
impact, and what a beautiful thing it is, Madam Chair, some 310 
million of our fellow Americans live in this great Nation, the 
most diverse country, in my humble opinion, where people from 
all different ethnicities and nationalities are represented 
here to give a sense of expression how important as fellow 
citizens and as fellow Americans and that the principles that 
we try to strive to live by, the Constitution and all that has 
come about for the past 230-some years since the making of this 
country and this great Nation of why it is so great. Yes, Don 
Payne was a great advocate looking out for the needs of the 
poor and the destitute, people who don't have a voice in the 
affairs of their government, whether it be in foreign 
countries, even here in our own country.
    So I say, we have a saying in my culture, may this brother 
have a good voyage, and I know he has a good voyage going on to 
meet his Savior, and Madam Chair, again, thank you, and I want 
to wish Mr. Payne's family all the best and the deepest 
sympathies and condolences on this sad occasion, yet I am happy 
for him. He has suffered enough. I am just happy to see that he 
is in the presence of our Father in heaven, and that is all 
that matters. I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. 
Faleomavaega. Mr. Royce, the chairman of our Terrorism, 
Nonproliferation, and Trade Subcommittee.
    Mr. Royce. Thank you, Madam Chair. I worked with Don Payne 
on the Africa Subcommittee for many years on many issues. I 
think one of the most unique things about traveling with Don 
Payne was no matter how remote the village, there was one 
individual, there was one American that the elders all knew or 
that the head of state in that remote country--inaccessible 
regions--there was one man they knew because Don Payne had 
already been there before. And likewise we had the opportunity 
frequently to go up to the United Nations to argue the American 
position, the U.S. position on issues. As Mr. Berman has 
indicated, the great asset in those engagements was always Don 
Payne because he had those personal relationships and he would 
argue for the U.S. position and for human rights and really 
bring a certain moral argument because he had been on the 
ground; whether it was Rwanda or Sudan. Don had been there. I 
remember a trip where Mr. Berman and I were in Africa, one of 
Mr. Berman's trips, and sure enough, Don was over, in all 
places, was over in Somalia lecturing and giving talks wherever 
he could against al-Shabaab's human rights abuses. As he was 
leaving the country, he had one last press conference to attack 
al-Shabaab, they were shooting at his plane, they were 
mortaring his press conference on his way out of town. But Don 
had the last say in terms of the lack of human rights, and I 
think that for those of us who have watched Don in action, I 
think it is his courage also that stands out, not just the 
physical courage that I spoke about in terms of him going into 
areas where there was perhaps great resistance to the United 
States. I remember him on many occasions in Congo or in Angola 
trying to forge a peace, but political courage as well. I 
remember the African Growth and Opportunity Act when we started 
out, labor was opposed to that, and it took political courage 
for Don to help lead that effort. He was tireless, he had great 
knowledge, he had a really big heart; he will be deeply missed 
by his constituents and by us, and especially by those working 
to improve African lives. Thank you.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Connolly is 
recognized.
    Mr. Connolly. Thank you, Madam Chairman. When I think of 
Don Payne and watch him in this committee, I think of three 
words--passion, witness, and honor.
    Nobody brought more passion to issues affecting the African 
continent than Don Payne, and that sense of commitment I think 
struck everybody who watched him, heard him, and it is 
something I think all of us can take away from his life and his 
experience here on this committee. He had a passion for what he 
did and what he believed in, and it showed.
    Witness. Don didn't take the Africa Subcommittee issues as 
an academic exercise. He rolled up his sleeves and he got in 
harm's way. He gave witness where there was human suffering in 
a continent that has all too much of it. He was there in 
Somalia, he was there in Darfur, he was there in Rwanda, he was 
willing to put himself in harm's way, as Mr. Royce just said, 
to give witness on behalf of the United States of America in 
terms of our solidarity with the suffering people of Africa.
    And honor. Don Payne brought honor to this institution, to 
this committee. I have been professionally associated with this 
committee in one fashion or another over the span of 33 years, 
and we can single out members in that time period who 
distinguished themselves as experts in a particular area. Don 
is one of those handful of distinguished members who knew 
everything he could about Africa, about its leadership, about 
its challenges, and about its opportunities, and set about to 
bring honor to this institution by representing us in Africa 
and on African issues.
    He will be sorely missed as a colleague and as a friend, 
and my deep condolences go out to his family and to his staff, 
who shared his passion and today share with his witness and his 
honor. Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, sir. Mr. Rohrabacher.
    Mr. Rohrabacher. Some of the points Mr. Connolly made were 
just right on target, and sometimes we think of passion as 
being someone who raises their voice and pounds on the table, 
and Don was certainly a person of passion, but you never saw 
him pound on the table. He was so thoughtful, to me he was 
someone who really reflected a thoughtful perseverance in his 
personality toward the things that he believed in, and he had 
sincere beliefs. At times when we are up here meeting someone 
on the other side of the aisle who has strong beliefs sometimes 
is a little bit disconcerting because we don't know them, and 
until we get to know them, we don't realize what value they 
have, and sometimes we are a little afraid of someone.
    Don had very strong beliefs in human rights and a concern 
for his fellow human beings, and he came toward the political 
spectrum from the opposite side of the spectrum that I come 
from, and I did have some trepidations when I first got on this 
committee, but I will tell you, I learned to respect that man, 
and I will miss him terribly as we move on. He added a sense of 
honor and true caring to this committee that I think all of us 
felt. I know that sometimes people think that if you have got a 
philosophy as Don had that it is going to hinder your ability 
to see the truth, as some people claim about me sometimes, and 
let me just note that sometimes when you have a philosophy, it 
helps you see through things, through the lines that we are 
given by our handlers and lobbyists, et cetera.
    Don saw through so much and to the truth and to the 
suffering of people who he cared about in Africa, and he was 
able to enlist us in that concern, so I will miss him. I 
thought very highly of him, as we all did, and I just think 
that we have lost a real asset to this committee, and I hope he 
is watching up there right now, and maybe we can all pledge to 
in his memory make sure that we keep that same kind of spirit 
of perseverance and positive spirit. He worked with me on 
Ethiopia, and I promise you right now, Don, I am not giving up, 
we are going to win in Ethiopia eventually. Thank you.
    Chairman Ros-Lehtinen. Thank you. Ms. Wilson of Florida is 
recognized.
    Ms. Wilson of Florida. Thank you so much, Madam Chair. I am 
saddened by the passing of my friend and colleague, Congressman 
Donald Payne. Throughout his adult life, he served the people 
of New Jersey as an educator, a community leader, and in 
Congress. As a long-serving member of the House Committee on 
Foreign Affairs, he was a leader in supporting democracy in 
Africa and throughout the world, and I worked with him very 
closely on issues impacting Haiti and the rest of the 
Caribbean. His name is a household word in Haiti. In fact, at 
the time of his death, we were working on the process of 
starting a bipartisan Haiti caucus.
    He was also committed to domestic issues, and he was a 
leading advocate on the Education and Workforce Committee for 
reducing college costs for students, a trailblazer. Donald was 
the first Black president of the National Council of YMCAs and 
the first Black Congressman from New Jersey. As a colleague of 
his in the Congressional Black Caucus and on the House 
Committee on Foreign Affairs, I got to see firsthand his 
decency, empathy, and leadership. My thoughts and prayers go 
out to Donald's family. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you very much, Ms. Wilson. Mr. 
Chabot of Ohio.
    Mr. Chabot. Thank you very much, Madam Chair. You know, I 
was thinking that--well, first of all, I would like to say that 
many other of my colleagues have already spoken far more 
eloquently than I could relative to Don Payne. He was one of 
the people on this committee that we are clearly going to miss. 
I actually had a similar path getting here as Don. We both 
served on city council, and then at the county level, and then 
we both ran for Congress in 1988 the first time. He won, I 
didn't. I got here 6 years later, and by that time, the 
chairwoman of this committee here today was the chairwoman of 
the Africa Subcommittee, and Don Payne was ranking member and 
so got to see him in action and really respected.
    If you saw them in action, it really showed the true 
bipartisanship the way Congress is actually supposed to work, 
on a whole range of issues, whether it was, you know, blood 
diamonds, whether it was the Congo, whether it was Darfur, a 
whole range of things, and Don is really a person, as I said, 
who is going to be missed. He cared deeply.
    I was actually going to say something exactly that Dana 
Rohrabacher had said about him not being a table thumper was 
what I was going to say, and then you said he wasn't a person 
to pound on tables. He was a soft-spoken gentle man in many 
ways, and I say that as a compliment because, you know, 
sometimes we do scream and yell and get a little over the top. 
He didn't. But he really did pack a punch. And he is going to 
be missed, and God bless him. Thank you.
    Chairman Ros-Lehtinen. Thank you so much. And now Ms. Bass 
is recognized for her statement.
    Ms. Bass. Thank you, Madam Chair. I certainly want to join 
my colleagues in offering my condolences to Mr. Payne's family 
and also to the staff. Losing Mr. Payne, to me, I mean, it is 
definitely and obviously from what my colleagues have had to 
say a loss to our Nation, but it is also a loss to the world 
and to the continent of Africa.
    I just wanted to say that--share a little story. Before I 
came here, after I won my election in Los Angeles, I represent 
a very diverse district, and there are a lot of Africans from a 
variety of countries there, and so wanting to get to know my 
district and get prepared to come to Washington, I organized a 
meeting, and about 40 representatives from various African 
nations came, academics and business people, et cetera, and 
they began to tell me about Mr. Payne.
    Now they had never met him, but he was legendary, all the 
way in Los Angeles, folks who were recent immigrants telling me 
that when I get to Washington I had to meet, I had to work with 
Mr. Payne. I asked to be on the Foreign Affairs Committee and 
wanted to be on the Subcommittee on Africa, and immediately 
they gave me the task of bringing Mr. Payne to Los Angeles, and 
so I worked and I think I almost harassed his staff and him for 
him to come to Los Angeles, and never did I realize that he 
wasn't well, and I just have to say that I really regret not 
having the opportunity to travel to Africa with him.
    When he would open up the subcommittee with his comments, 
in his very humble and gentle way, he would always reference, 
as many of my colleagues have said, well, before the hearing I 
spoke with President so-and-so. I mean, he seemed to know every 
President, and I remember being startled when one day in his 
very calm voice, he said when we were leaving, I think it was 
Somalia and my plane was fired on, and I remember looking back 
at him and saying, ``What?'' You know, he is just really going 
to be a loss to all of us. I had looked forward to being the 
sponge that sat next to him and sucking up all of his 
knowledge, and so he will be deeply missed by me personally, 
and I know he will be missed by everyone on the committee and 
in our Nation. Thank you.
    Chairman Ros-Lehtinen. Thank you, Ms. Bass. Mr. Cicilline 
is recognized.
    Mr. Cicilline. Thank you, Madam Chair, for giving us the 
opportunity to honor our colleague, Don Payne. I, too, want to 
extend my condolences to Don's family, his wonderful staff, his 
constituents, and his congressional colleagues from New Jersey. 
He was a very kind man and a citizen of the world. He was 
always willing to share his wisdom and his insights, and that 
was particularly helpful to me as a new Member of Congress. I 
was honored to get to know Don and quickly came to respect and 
admire him, particularly his commitment to the continent of 
Africa and global health.
    Our committee, this Congress, and the world will miss his 
passion, his voice, and his advocacy, and I hope we will honor 
his legacy in Congress and in this committee by continuing the 
work that he was so dedicated to. Thank you, Madam Chair. I 
yield back.
    Chairman Ros-Lehtinen. Thank you. Mr. Carnahan.
    Mr. Carnahan. Thank you, Madam Chair, and it has really 
been inspiring and moving to listen to our colleagues here 
today honor Don Payne. I want to add my condolences to his 
family and his staff and to his constituents. I loved to listen 
to him share his passion for his work. It reminded me of when I 
was a very young man listening to my grandfather tell stories 
about serving on this committee and on the Africa Subcommittee. 
So for me during my service here to be able to serve on the 
Africa Subcommittee and to have that same kind of fascination 
and inspiration listening to our colleague Don Payne share his 
work I think has been very meaningful for me. He cared 
passionately about his work. He led in ways and on issues that 
a lot of people neglected, and he delivered.
    I hope that all of us will use Don's inspiration and 
rededicate ourselves to carry on that work and to be lights to 
shine on these areas that he was so dedicated to.
    With that, Madam Chair, I yield back.
    Chairman Ros-Lehtinen. Thank you, sir. Mr. Meeks.
    Mr. Meeks. Thank you, Madam Chairman. I am devastated, a 
part of me, knowing that my friend Donald Payne will not be not 
only sitting right down a few seats from me, but able to get 
his advice. I have listened and I thank you, Madam Chair, for 
this opportunity for all our colleagues to say about this 
American hero, Donald Payne, to talk about him. He really was 
American history, he was a history teacher, and I trust that 
American history is going to record his life as a great 
American patriot.
    See, sometimes in life, people go through it wondering what 
their purpose is. What is my purpose? Why am I here? What is my 
mission? We are blessed because there is a side of me saying 
that I am blessed to have been with a man who knew his purpose 
and what his mission was. It wasn't easy for Donald to get 
here. He ran and he lost. He ran again and he lost. He ran 
again and he lost. But he knew what his mission and what his 
purpose was. He knew that he would also, once he won, become a 
role model, a role model for many a young boy who were growing 
up in Newark, New Jersey, who had no other role models, who 
would look up to Donald Payne, many of them he had taught in 
school. He knew his mission was to make their lives better and 
to lead by his actions. My colleagues were absolutely right. 
Soft spoken, but you never took the soft-spoken words as a 
mistake for what his determination is and was, and that 
determination you saw throughout his life.
    When you hear of our colleagues talking about how, whether 
his plane was being shot at, whether he would go into the bush 
in Africa where nobody else dared go, he knew what he was 
trying to accomplish. He knew that that was his mission. Or 
when he was walking the streets of Newark, his beloved Newark, 
he would always talk about the people of Newark, no matter 
where he was in the world, wanting to make their lives better. 
And I have got to say in closing, Gregory Meeks would not be 
sitting on this back row in this Foreign Affairs Committee if 
it wasn't for Donald Payne.
    When Donald Payne came to Congress, it wasn't popular to be 
on the Foreign Affairs Committee. In fact, for many Members of 
Congress at that time, it was the last committee that you 
wanted to be on. People, you know, said, oh, they had to come 
on this committee, you know, because it was the only one that 
was available. I learned of Donald in New York City, was 
following his career, knowing that I wanted to become a Member 
of Congress and get on the Foreign Affairs Committee, utilizing 
and talking to him on how to do it once I got here. And then 
asking his advice, utilizing his experience, picking his brain, 
learning his legislative manner on how to get things done, how 
to do and create relationships with individuals, wanting and 
following him on the NED board.
    What manner of man, Donald Payne. We are going to miss him, 
but I think all of us who have had the opportunity to be around 
him, whether we be Democrat or Republican, whether we be Black, 
White, brown, red or yellow, whether we be in the United States 
of America or some other part of the world, we are all lucky 
that we were touched by the spirit, by the man that we know as 
Donald Payne. Donald, we are going to miss you, but I have got 
to tell you, I can see you now talking to the Lord and him 
saying to you, job well done, my faithful son.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Meeks. Mr. 
Keating.
    Mr. Keating. Thank you, Madam Chair. As someone that is new 
to Congress, there is one aspect I would like to comment on, 
and that is the idea, I think it came from the part of him that 
was an educator because he was a person that held himself out 
to me and to all new Members as a mentor. He was open and 
welcoming, here in committee and on the floor when I had 
occasion to seek him out. And that part of him I think rests in 
the teaching aspect as well. I am frankly jealous, Madam Chair, 
that so many of the members here had experiences with him, were 
able to travel with him, share issues with him that I did not 
have, but I will say this: I am convinced that even though he 
is gone from us now, I will continue to learn because of Donald 
Payne, I will continue to have Members and staff and other 
people talk to me and say, this is an issue that is important 
because Donald knew it was important, and that will continue 
on.
    In an era of lack of civility in public life that the 
American public is crying out to see, he was a shining example 
of how to conduct yourself as a public official and demonstrate 
that civility. My sympathy goes to his family and his staff. 
Thank you, Madam Chairman. I yield back.
    Chairman Ros-Lehtinen. Thank you. So pleased to yield to 
Mr. Fortenberry who worked well with Mr. Payne. Mr. Fortenberry 
is the vice chair of the Africa, Global Health, and Human 
Rights Subcommittee.
    Mr. Fortenberry. Thank you, Madam Chair, for taking a few 
minutes of time to allow us to honor and celebrate the life of 
our good friend and deceased colleague, Mr. Payne. You know, a 
couple months ago, maybe a little less, I looked over at Don on 
a committee hearing, and it just struck me that he didn't look 
well. I didn't realize he was sick. I don't think many of us 
did, and that is probably a testament to his character that he 
continued his work right to the very end without fanfare 
because he was so dedicated to trying to solve injustices, 
particularly around the world, and given his deep, deep 
commitment to the work on Foreign Affairs, as Mr. Carnahan put 
very well, he tried to address the needs of neglected people.
    And in fact, I was thinking about a story that I could 
perhaps share with you all, we have done some work to try to 
prevent the use of child soldiers internationally, and there is 
a country in Africa that is a persistent violator and there is 
an ongoing problem with the abuse of children in that country. 
We were going to strengthen the United States laws in order to 
try to prevent this most pernicious form of child abuse, but 
Don Payne came to me quietly, and he said there is a bit of a 
dilemma here. He personally knew the President of one of the 
countries in which we were targeting, he had been working 
quietly to try to develop that relationship in order to try to 
diminish the possibility of further abuse of children in this 
regard. He was worried that if we were too aggressive, we might 
lose the relationship and potentially undermine the very end 
which we were seeking.
    I respected his viewpoint, and we were able to creatively 
craft a solution to that dilemma while continuing to press on 
in this important work of preventing the abuse of children as 
child soldiers. He invited me several times to go to Africa 
with him. He was very dedicated to that part of the world, and 
we also co-chaired the Malaria Caucus together.
    Mr. Meeks, you know the reason he did that, it wasn't to 
get votes back in New Jersey, it wasn't because there was some 
constituent necessarily who would help him because of that 
work. It was simply because, as you said, he was dedicated to 
this cause of trying to stop a serious injustice, trying to 
stop a preventable disease, motivated by one reality, that this 
kills children, and we are in a position to help. So I think 
that was a mark of his life.
    I spent time with him in office. Even though we didn't know 
each other deeply and well, I respected his work, and I today 
join with my colleagues in celebrating his life. Thank you, 
Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, sir. Thank you very much. 
Mr. Sires, a member of the New Jersey delegation with Don 
Payne.
    Mr. Sires. Thank you, Madam Chair, for allowing us a few 
minutes to talk about Don Payne, my friend. I shared the 
northeast part of New Jersey with Don, and we were constantly 
talking. You know, on Sunday I went to the hospital to see him, 
and it broke my heart that my friend was there, and his family 
was all there. You know, the Payne family is a very well-known 
family in New Jersey for their caring. I have served in the 
Assembly with his brother, with his cousin, and they always 
cared about people, and that is how Don was. But he had an 
inner determination.
    I remember when he first ran. He ran against a legend, 
Peter Rodino, three times in Newark, New Jersey, against the 
machine, and his determination led him to this House. He 
finally won, and he had big shoes to fill because Peter Rodino 
was a legend, and let me tell you, he more than filled those 
shoes with his caring, his human rights, the work that he did, 
and always on a very even keel. Sometimes I wanted to shake him 
and say, Don, come on, you know. But, boy, he was just so even. 
I guess it must be my Hispanic background, we just didn't match 
together, but he was--I mean, he is one of those individuals 
that you meet and you become a better person for meeting and 
dealing with him, and New Jersey and this country has lost a 
great individual. I am going to miss him, this House is going 
to miss him, and I thank their family for all that they do. It 
is in the genes of the Payne family to be good human beings. 
Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Mr. Sires. Ms. Schwartz 
is recognized.
    Ms. Schwartz. Thank you, Madam Chair. I just wanted to add 
my words. You have heard many of the same things from us about 
Donald Payne, and I do feel honored to have served with him and 
to have known him, and I did have the opportunity to travel 
with him to Africa on the House Democracy Assistance 
Partnership, and it just showed everything we have just heard 
about this morning. He was personally just enormously gracious 
and warm and collegial. I mean, certainly for newcomers and for 
those who had shared his expertise.
    There was just no one like Donald Payne when you went to 
Africa. I think we all have our stories where he went off just 
before dinner one evening, and it was to visit with the 
President of the country who was feeling ill and had cancelled 
our meeting but somehow made time for Donald Payne, and that is 
what you always knew would happen or we would go into a meeting 
and we would have all our briefs and then Don would sort of 
lean over and say, well, I kind of knew him back when and 
things weren't so cool then. He would know all the good, the 
bad, and the ugly, and even through all of that he maintained 
just an enormous sense of possibility and opportunity, 
particularly in the work with Africa, and his commitment and 
passion always came through, but he was--maybe fiery would 
never be a word we would call Donald Payne because he was 
always so calm and so clear and didn't rile things up.
    It was kind of interesting, if he did so, he did it in sort 
of a determined and quiet way. So for his knowledge, for his 
service, for his generosity of spirit and for his commitment to 
his constituents and to public service, I think he sheds a 
really wonderfully positive light on the kind of work you can 
do in Congress when you are committed not only to your 
constituents but to the world community, and Donald did that. 
So he will be missed.
    My condolences and thoughts and prayers to his family, and 
for the opportunity to have served with Donald Payne, I think 
it has enriched me and my knowledge and my experience here, and 
he will certainly be deeply missed.
    Chairman Ros-Lehtinen. Thank you so much. And another 
person who worked for so many years with Mr. Payne, Mr. Engel, 
is recognized.
    Mr. Engel. Thank you, Madam Chair. Don Payne and I were 
classmates. We both came together to Congress together back in 
1988, November 1988 along with Eni Faleomavaega and Dana 
Rohrabacher. Our class is getting smaller and smaller, 
unfortunately. The first thing I remember about Donald Payne, 
in fact, one of our classmates called me yesterday, our former 
colleague, John Tanner of Tennessee, and he said, you know, we 
lost Don Payne, I feel so badly. We were recalling that first 
year in 1988 in December when all the freshmen went to freshmen 
orientation in Massachusetts in Boston at the Kennedy Center at 
Harvard. Afterwards we were trying to get tickets and we did 
get tickets to the Celtics game, and John Tanner arranged that, 
and he went up there with his Tennessee twang and told the 
people at the will call that we were picking up the tickets, 
and they couldn't understand him, and Donald Payne and I had to 
be interpreters, and he was recalling that, and I was recalling 
that as well.
    He was a very good Member of Congress, particularly of the 
Foreign Affairs Committee. He took his committee, our committee 
very seriously, did lots and lots and lots of traveling, 
probably more than almost any other Member of Congress, mostly 
in Africa, but all around the world. I traveled with him a 
number of times to Africa and to other places in the world, and 
he felt very strongly about the work that we in Congress could 
do to help make people's lives better all around the world.
    When I chaired the Western Hemisphere Subcommittee of our 
committee, Don was a very valued member of that subcommittee, 
felt very strongly about South America, Central America, and 
the problems we were having there, and was very diligent, came 
to hearings and came to meetings and really expressed his 
opinion and really added just so much.
    So, Madam Chair, I want to add my voice to everybody in 
this room, all the nice things they have said. They are all 
true. We all miss him. Our class, the class of 1988, getting 
smaller and smaller, but I have to tell you, he was a large and 
important part of that class, and as our colleagues have said, 
he may be gone, but he will never be forgotten, and we are all 
better for having known him. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Amen. At this point the committee 
will observe a moment of silence in honor of the life and 
public service of Congressman Don Payne.
    [Moment of silence.]
    Chairman Ros-Lehtinen. Godspeed, amigo. Thank you so much. 
Thank you to all of our members.
    And now we will proceed to today's business. Without 
objection, all members may have 5 days to insert written 
remarks into the record on any of today's measures or 
amendments. Pursuant to the procedure, we e-mailed your offices 
about yesterday, we will consider the Syria bill first, 
followed by an en bloc consideration of the remaining measures. 
I now call up the bill H.R. 2106, the Syria Freedom Support 
Act.
    [H.R. 2106 follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    Chairman Ros-Lehtinen. Without objection, the amendment in 
the nature of a substitute that was sent to your offices on 
Monday and that all members have in front of them will be 
considered base text for purposes of markup, is considered 
read, and is open for amendment at any point. Also, as your 
offices were notified last night, in order to save everyone 
from having to hear double statements from me, I will call up 
the bipartisan manager's amendment before we proceed to the 
opening statements.
    [The amendments of Ms. Ros-Lehtinen follow:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    Chairman Ros-Lehtinen. So without objection, amendment 110 
offered by the Chair, which members have before them, is made 
the pending business of the committee and is considered read.
    Before turning to the ranking member and any other members 
seeking recognition on the Syria measure, I recognize myself to 
speak. Today the committee is marking up legislation to address 
the threat posed by the Syrian regime to our Nation, to our 
interests, and to our allies. It is fitting that we should be 
marking up this legislation at this time, as this week marks 
the 1 year anniversary of the beginning of the current protests 
against the Syrian regime, and for those who thought of and 
referred to Assad as some kind of reformer and that any 
engagement will ultimately bear fruit, the facts have proved 
them wrong, proven them wrong.
    The regime that some rushed to engage has been doing the 
following: They have been on the State Department State Sponsor 
of Terrorism List since 1979, well-earned, maintained a 
strategic partnership with the Iranian regime as well as with 
Hamas and Hezbollah, aided and abetted the entry of foreign 
fighters into Iraq who killed our young men and women serving 
in uniform there, repeatedly retained extensive chemical 
weapons and ballistic missile capabilities, and pursued a 
secret nuclear program reportedly with North Korea's 
assistance, and now the regime is waging war against the Syrian 
people who are being killed on a daily basis as they exercise 
their fundamental freedoms.
    Assad's regime is digging in for a long-term war, and news 
reports indicate that the regime is bragging about mass 
cleansing. The bloody assault on the city of Homs and other 
areas in the country clearly show the regime will not release a 
stranglehold on the Syrian people. Congress must, once again, 
lead the effort to clarify U.S. policy and provide all with the 
necessary tools and guidance to address the situation in Syria, 
the threats posed by the Assad regime to the United States, our 
interests, and our allies.
    To that end, we are marking up H.R. 2106, the bipartisan 
Syrian Freedom Support Act. This bill strengthens sanctions 
against the Syrian regime, enhances multilateral commitment to 
address the Syrian regime's threatening policy, and establishes 
a program to support a transition to a democratically-elected 
government in Syria.
    H.R. 2106 states that it is the objective of U.S. policy to 
deny the Syrian regime the ability to carry out, and 
ultimately, we hope, to abandon its support for foreign 
terrorist organization, its development of dangerous weapons 
programs, its intervention in the affairs of the Lebanese 
Government, and the oppression of its own people in Syria.
    H.R. 2106 also strengthens existing U.S. laws, targeting 
the Syrian regime's weapons programs and imposes extensive 
sanctions on Iran's energy sector. The bill also authorizes 
financial and political assistance to entities that support a 
peaceful, democratic transition in Syria and requires the 
Secretary of State to submit a strategy to support a transition 
to a democratic government in Syria.
    Finally, H.R. 2106 also seeks to address the Syrian 
regime's gross human rights abuses by imposing sanctions 
against senior regime officials responsible for such abuses. I 
would conclude by noting that Congress last enacted Syria 
sanctions in 2003 when we adopted the Syria Accountability and 
Lebanese Sovereignty Restoration Act, coauthored by me and my 
friend and colleague from New York, Mr. Engel.
    In the almost 9 years since, the threat posed by the Syrian 
regime against the U.S., our allies, and the Syrian people has 
grown steadily, but U.S. efforts to address this threat has not 
risen proportionately. So, I am pleased that Mr. Engel and I 
have been able to team up again to sponsor legislation that 
has, that we have worked with our ranking member, my good 
friend from California, Mr. Berman, to include additional 
financial sanctions, a visa ban on persons who provide the 
Syrian regime with military equipment, a mechanism for the 
disposal of Syrian chemical, biological, and nuclear materials 
once a post-Assad transition government is in place.
    I appreciate the ranking member's cosponsorship, his strong 
support for the bill, and with that, I am pleased to recognize 
my friend from California, Mr. Berman, for his remarks.
    Mr. Berman. Well, thank you very much, Madam Chairman, and 
I want to thank you for introducing the legislation with our 
colleague Elliott Engel, who has been so involved in these 
issues for such a long time, and for working with me closely on 
the amendment in the nature of a substitute, and on this 
manager's amendment to accommodate some of my concerns. I am 
now a cosponsor of this bill, and I encourage my colleagues to 
support it as well.
    Madam Chairman, the Arab Spring has brought about both hope 
and bloodshed. We have all seen the video clips from Syria. 
They are heart rending, especially the barbaric bombardment of 
Homs. Bashar al-Assad's ceaseless pounding of that defenseless 
city, as well as similar actions throughout the country, have 
proven conclusively that he is nothing but a chip off the old 
block of his late father.
    I have spoken previously about the fact that our interests 
and our values are in perfect sync in seeking the collapse of 
the Assad regime. Assad's downfall would almost certainly lead 
to more humane governance in Syria. It would also likely mean 
the demise of the Iranian presence in Syria and would be a blow 
to Hezbollah's cynical sway in Lebanon. This bill will 
certainly help us accomplish the first by tightening the 
financial noose around Assad's neck, already tied very tight by 
the Obama administration.
    As for the second part of the equation, building a peace-
loving democracy in Syria, I now believe that this bill with 
the changes to which the chairman has so graciously consented, 
does not impede that prospect, either. We want to make sure 
that our actions in this body, to the extent possible, provide 
incentives for democratic forces, not discourage them. In that 
regard, I truly want to thank the chairman for agreeing to 
modify the bill so that the President has the flexibility to 
make sure that the sins of Assad will not be automatically 
visited and attributed to a successor regime.
    No issue concerns me more deeply than that of the 
disposition of Syria's weapons of mass destruction. We should 
all be worried that in the aftermath of civil war and weakened 
central control, Syria's stockpiles of chemical weapons, 
biological agents, and precursors could leave the country and 
fall into the hands of terrorist groups. In order to meet this 
threat, we have added to the bill a provision that would 
authorize the President to use the existing authorities of 
Nunn-Lugar cooperative threat reduction program and the 
Nonproliferation and Disarmament Fund at State to work with 
officials and scientists in the post-Assad Syria. It would also 
allow them to transfer whatever funds and draw down whatever 
U.S. resources are necessary in support of this objective. We 
have added a provision that would deny visas to executives, 
shareholders, and other senior officials of companies, many of 
them from Russia and China that continue to arm the Assad 
regime, knowing full well that their weapons will be used to 
sustain the regime's murderous assault on its own people, and 
we have added a third provision, similar to the one in CISADA 
that would impose severe sanctions on foreign banks that engage 
in or facilitate transactions with Syria, Syria's security 
services or its armed forces or to facilitate withdrawal of 
foreign currency reserves for the Syrian Government.
    Finally, Madam Chair, finally, as you know I will be 
offering an amendment that will call for Bashar al-Assad and 
senior regime officials to be referred to an international 
tribunal to be tried for crimes against humanity and other 
gross human rights violations.
    Madam Chairman, we, and particularly our staffs, have put 
in a lot of hours to produce a bill with wonderful, worthy 
objectives of ending the tyranny of the Assad regime, replacing 
it with a humane successor. In pursuing these efforts, I know 
we have all been ever mindful of the memory of the tens of 
thousands of innocents killed by the Assad family and of the 
remarkably courageous men and women who continue to protest 
daily throughout Syria and who do so in the face of some of the 
worst brutality imaginable. I yield back.
    Chairman Ros-Lehtinen. Thank you. Absolutely, Mr. Berman. 
Thank you for that statement. I am pleased to yield to Mr. 
Rohrabacher time to address the issues before us.
    Mr. Rohrabacher. Thank you very much, Madam Chairman. The 
Syria bill is a carefully-measured approach to a horrendous, 
but at the same time, dangerous situation. In the not-so-
distant past, we have rushed into conflicts and to commitments 
that have proven disastrous. Yes, we should support those brave 
people struggling for freedom, as this bill does, but let us 
keep in mind that we cannot do their fighting for them, and 
there are lines to which we should not cross.
    Making the situation more complicated we don't seem to have 
any of the management skills that are necessary to help 
transitions when such efforts as we are now seeing in Syria 
succeed. So we can't manage the transition from an oppressive 
regime, when it is overthrown, to a more democratic system. We 
just--as time has proven, we haven't been able to do it. We 
failed in Iraq after spending a $1 trillion and losing 
thousands of lives with even more crippled by their wounds.
    And after all of that, we now have a government in Baghdad 
that is aligning itself with an anti American Mullah regime in 
Iran. And of course, we have also left in Iraq a mountain of 
military equipment that now may be used against our friends.
    The situation in Libya, of course, is unclear but in Egypt, 
of course, it is also reason for serious concern. In 
Afghanistan we have established a corrupt and incompetent 
government, and have pushed to the sidelines our Afghan allies 
in the northern alliance who actually drove the Taliban from 
power back in 2001. Our strategy there cost $0.5 trillion and 
thousands of more dead and wounded Americans without producing 
a victory or a government that can be sustained without our 
continued military presence. So let's pray that America has 
learned something from these recent disastrous interventions.
    And this bill that we have today is measured and is 
thoughtful. But let's keep these things, these past situations 
in mind, and the first lesson, of course, as we move forward 
and decide how we are going to approach that part of the world 
is perhaps we should start by making sure we have learned the 
lesson and we recognize that Pakistan is no longer our friend, 
and that we should cut Pakistan's military off from any U.S. 
aid.
    The fact is that we can have an influence in that part of 
the world, whether it is Syria or the Persian Gulf or in south 
Asia by working with other countries that have our same 
interests and share, would share the same defeats and the same 
threats that we face, namely India and Russia, and the central 
Asian Republics face that same threat. So we need to make sure 
that we have learned the lessons in that part of the world and 
not rush in whether it is Syria or anywhere else.
    So I rise in favor of this piece of legislation, but I do 
so with a warning that while this bill is crafted well and puts 
us on the side of those who are fighting for freedom, we should 
not, again, be lured into a situation where we are doing the 
fighting for people who should be fighting for their own 
liberty and trying to take over their job of transitioning 
their country from a dictatorship into a more democratic 
society. Thank you very much.
    Chairman Ros-Lehtinen. Thank you, Mr. Rohrabacher. So 
pleased to yield to one of the sponsors of the legislation, Mr. 
Engel of New York.
    Mr. Engel. Thank you, Madam Chair. I rise to strike the 
last word, and I rise in strong support of H.R. 2106 the Syria 
Freedom Support Act. We reached a critical juncture in Syria, 
and this bill is critically important, but before discussing 
the bill, I would first, Madam Chair, like to extent my deepest 
words of appreciation to you and the ranking member for your 
hard work to reach a compromise on the bill. And Madam Chair, 
let me say you have been my partner on several pieces of 
legislation through the years related to Syria. We did the 
Syria Accountability Act together in 2003 and 2004, and I want 
to thank you personally and your staff for your leadership and 
for our efforts together. Thank you.
    To our ranking member, I thank you and your staff for your 
excellent work, without with which could not have reached 
today's successful agreement. As the lead Democratic cosponsor 
of this bill, I am keenly aware that both of you showed the 
best in the legislative process, sometimes hard fought, but 
always with the desire to reach a mutually acceptable goal.
    Colleagues, innocent civilians are again dying by the 
thousands in Syria and it is time that Congress act. Just over 
8 years ago, as I mentioned before, we passed the Syria 
Accountability, in Lebanese Sovereignty Restoration Act which 
the chair and I authored to respond to Syrian excesses. That 
law was a good law and had many accomplishments. But it had 
mixed results. Yes, Syrian Armed Forces are out of Lebanon, but 
no, Syria still supports terrorism, maintains weapons of mass 
destruction and work to undermine our efforts in Iraq, and work 
to undermine our efforts all over the globe.
    Today, however, events in Syria have gotten much worse and 
a stronger response is needed. So the Syria Freedom Support 
Act, Madam Chair, could not have come at a better time. We need 
to increase the pressure on the Assad regime and this bill does 
just that. But I think we need to do even more. What happens in 
Syria is not only critical to the country citizens, but events 
there affect everyone around them. If the Assad regime falls, 
Iran loses its only ally in the region, and Hezbollah loses the 
main conduit for its weapons and cash.
    I am aware of concerns of a sectarian civil war in Syria. 
But frankly, I don't see how it could get much worse there. And 
it is hard to imagine what comes after Assad being worse 
either. Thus, I was glad to read in today's cable blog that the 
Obama administration is moving to provide direct assistance to 
the internal opposition in Syria for the first time, marking a 
shift in U.S. policy toward a more aggressive plan to help oust 
President Bashar al-Assad. I read Senator McCain has also, I 
think, made some very thoughtful comments on this. I don't 
think we can sit by and let this just continue. I think the 
world needs a response; if there was a response in Libya, there 
should be a response in Syria. So this is the right direction, 
I applaud the administration, and urge us to move ahead with 
all speed.
    So Madam Chair, again, our passage of the Syria Freedom 
Support Act is timely and urgent, and as always, you are always 
right on top of these important matters. And as your lead 
Democratic cosponsor of the bill, I urge all of our colleagues 
on both sides of the aisle to vote in favor and I yield back.
    Chairman Ros-Lehtinen. Thank you very much. Now I yield to 
Mr. Smith to speak about the human rights aspects of this bill.
    Mr. Smith. First of all, let me thank you, Madam Chair, 
Howard Berman and Eliot Engel for putting together a very 
responsible, well-calibrated, well-crafted piece of 
legislation. I especially want to point out a section--and 
associate myself with your remarks because you explain in great 
detail what the bill includes. I think section 505 really is 
part of what we should be doing with so many bills, and that is 
focusing on sanctioning the very people who commit the crimes, 
who torture, who commit crimes against humanity. Rather than 
just punishing the entire country, it focuses on those who 
actually do the mischief and commit the crimes. So I want to 
especially thank you for section 505, and ask, unanimous 
consent to revise and extend my remarks, for the bill.
    Chairman Ros-Lehtinen. Without objection.
    Thank you. Seeing no other baseball signals, seeking 
recognition on the Syria bill, the pending question is on the 
bipartisan Manager's amendment. All those in favor, say aye.
    All opposed, no. In the opinion of the Chair the ayes have 
it. And the Manager's amendment is agreed to.
    I now recognize the ranking member to offer his amendment 
to the base text and thank him for incorporating edits required 
by myself.
    Mr. Berman. Thank you. Madam Chair, I have an amendment.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to amendment in the nature of a 
substitute to H.R.----

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Ros-Lehtinen. Without objection, the amendment is 
considered read and the gentleman is recognized for 5 minutes 
to explain his amendment.
    Mr. Berman. Thank you very much. This won't take 5 minutes, 
Madam Chair. This is a very straightforward amendment. It makes 
clear that it is the policy of the United States to seek the 
referral of Bashar al-Assad and other senior members of his 
regime to an international tribunal. There is no doubt that 
Bashar al-Assad is a war criminal. The U.N. High Commissioner 
for Human Rights has accused the Syrian leadership for crimes 
against humanity. The Independent International Commission of 
Inquiry on Syria found that the Assad regime has committed 
widespread, systematic and gross human rights violations. 
Independent reports from Homs and other Syrian cities paint a 
horrific picture of violence on a nearly unimaginable scale, 
much of it perpetrated against civilians.
    Assad and his cronies should stand trial for their crimes. 
Perhaps the Russians and the Chinese may block attempts to hold 
Assad accountable, but there should be no ambiguity in the 
position of our Government on this issue.
    To those that argue that trying Assad for war crimes will 
lessen his motivation to leave office peaceably, I have to ask 
whether a man who shells his own cities, deploys snipers 
against peaceful demonstrators, refuses Red Cross access to 
trapped and injured civilians, will ever hand over power on his 
own volition. No, I don't imagine that the threat of being sent 
to an international tribunal keeps the Assad family awake at 
night. Rather, I suspect it is the untold number of voices 
throughout Syria clamoring for freedom and the end of Assad's 
dictatorial regime. I yield back.
    Chairman Ros-Lehtinen. Well, said. Thank you. The Chair 
will recognize herself. I am pleased that we were able to work 
out the agreement on the text of the ranking member's 
amendment. We all agree that al-Assad has committed horrific 
atrocities against the people of Syria. We all agree that he 
must be held accountable for those atrocities. While the 
ranking member and I may differ as to precisely where Assad 
should be held accountable, we do agree on the goal of 
accountability, and I am glad that we were able to finalize an 
agreement text that focuses on those areas of agreement.
    Hearing no further request for recognition, the pending 
question is on the Berman amendment. All those in favor, say 
aye.
    All opposed, no. In the opinion of the Chair, the ayes have 
it and the Berman agreement is agreed to.
    Hearing no further amendments to this measure, the question 
occurs on agreeing to the base agreement in the nature of a 
substitute as amended. All those in favor say aye.
    All opposed, no. In the opinion of the Chair, the ayes have 
it, and the amendment in the nature of a substitute as amended 
is agreed to.
    Without objection, the underlying bill, H.R. 2106, as 
amended, is agreed to and is favorably reported and will be 
reported as a single amendment in the nature of a substitute. 
Staff are directed to make technical and conforming changes.
    Now according to the expedited procedure shared with all 
members yesterday we will consider and approve all of the 
remaining measures en bloc. Afterwards, I will recognize 
myself, the ranking member and any other members seeking 
recognition for any remarks they would like to make. All of 
these items are in the packets in front of the members and were 
provided to your offices earlier this week.
    And so without objection, the following measures are 
considered as read and will be considered en bloc: H.R. 890, 
the Holocaust Insurance Accountability Act; Ros-Lehtinen 
amendment 107 to H.R. 890; H.R. 1410, the Vietnam Human Rights 
Act; the Smith amendment 68 to H.R. 1410; Connolly amendment 
127 to H.R. 1410; the Rohrabacher amendment 52 to H.R. 1410; 
H.R. 3783, the Countering Iran in the Western Hemisphere Act; 
the Duncan amendment 40 to H.R. 3783 as adopted by the 
Subcommittee on Terrorism, Nonproliferation, and Trade; the 
Duncan amendment 42 to H.R. 3783; H.R. 4041, the Export 
Promotion Reform Act; and Senate Concurrent Resolution 17, 
expressing the sense of Congress that Taiwan should be afforded 
observer status in the international civil aviation 
organization.
    [The en bloc amendments follow:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    Chairman Ros-Lehtinen. The Chair moves that the measures 
just listed be adopted by the committee. All those in favor say 
aye.
    All opposed, no. In the opinion of the Chair, the ayes have 
it and the bills and amendments considered en bloc are 
approved. Without objection, each of these underlying bills, as 
amended, is ordered favorably reported as a single amendment in 
the nature of a substitute, and staff is directed to make 
technical and conforming changes.
    Having concluded the operative portion of today's business, 
I will now recognize members who wish to make statements on the 
adopted en bloc measures, beginning with the Chair and the 
ranking member. If not, you have all been excused, but my words 
are just so eloquent, you don't want to miss a single word. But 
we are going to tape it and give you the ability to listen to 
it at leisure.
    Mr. Berman. Will the gentlelady yield?
    Chairman Ros-Lehtinen. Yes, I would be glad to yield.
    Mr. Berman. I hope after my words, none of you will regret 
having supported the bill just approved by en bloc.
    Chairman Ros-Lehtinen. We are going to--what is it, snatch 
defeat out of the jaws of victory. I would like to thank, first 
of all, the ranking member and all of our members and all of 
the staff that really worked so hard on this extensive 
bipartisan effort that went into the committee's consideration 
of five measures that were just adopted. Behind those few 
minutes of markup were many hours and many days of hard work 
and deliberations.
    Taking up each of the bills in turn: H.R. 890 the Holocaust 
Insurance Accountability Act is a long overdue effort to see 
that justice is done. It has been a pleasure to have worked 
with Mr. Deutch, my Florida colleague on this bill. And we are 
honored that several of our Holocaust survivors are able to be 
with us today. David Schacter of Miami, Jay Ipson of Richmond, 
Virginia, from Washington, DC, Louise Lawrence Israels, Dr. 
Sidney Lawrence, and Ruth Cohen. We are honored to have you 
here with us. Thank you so much.
    In the years leading up to World War II, hundreds of 
thousands of future victims of the Nazis' crimes purchased 
policies from European insurance companies. After the war, 
survivors contacted the insurance companies to submit claims, 
and to their shock, the survivors discovered that many 
companies refused to honor their policies. They insisted that 
survivors of concentration camps provide policy statements, and 
documents, and death certificates to verify their claims that 
the Nazis had stripped them of.
    In 1998, the International Commission on Holocaust Era 
Insurance Claims, ICHEIC, was established to address these 
serious issues, but ICHEIC was deeply flawed, suffered serious 
problems with accountability and oversight. Eighty-four percent 
of the 90,000 claims made were rejected, 84 percent of the 
90,000 claims were rejected. Nevertheless, survivors were told 
that ICHEIC, which stopped accepting new claims in 2004, was 
the only forum in which they could make those claims.
    Survivors are blocked from pursuing these claims in Federal 
court. This bill is the last hope for Holocaust survivors to 
obtain justice. This bill would enable survivors to pursue 
civil action against insurance companies in Federal court 
without any prejudgment of a verdict. Opponents of this 
legislation argue that the insurance companies have made 
contributions to reparation agreements and should be exempt 
from additional payments. They have the audacity to claim that 
this legislation will raise false expectations for Holocaust 
survivors regarding the results of litigation.
    Let me set the record straight. Contributions to 
reparations agreements are not a substitute for addressing the 
breach of contract that is the failure to pay legitimate claims 
of policy holders. And the assertion that this bill will raise 
false expectations for Holocaust survivors is outrageous. These 
are adults who simply want their rights restored. These 
companies should be bending over backwards to ensure that 
Holocaust survivors receive the funds they are owed, but this 
legislation is not asking anyone to bend over backward. It 
would simply enable Holocaust survivors to exercise the same 
right as all Americans seeking justice in our court system.
    So thank you Mr. Deutch, it has been a privilege to work 
with you on this bill, and we will recognize you in just a few 
minutes. And Mr. Berman, thank you so much as well for your 
contribution on this bill.
    Moving on, I would like to thank Mr. Duncan for introducing 
H.R. 3783, which seeks to promote U.S. security interest in the 
Western Hemisphere while protecting U.S. citizens here at home. 
Over the past years, we have witnessed the Iranian regime 
expand diplomatic and economic ties with rogue regimes in our 
hemisphere. Last January, Iran's Ahmadinejad completed a four-
country tour of tyrants, to Venezuela, Nicaragua, Cuba and 
Ecuador. The aggressive actions undertaken by the IRGC, the 
Quds force and Iran's proxies, like Hezbollah, have the 
potential to give Iran the platform that it needs in the region 
to carry out attacks against our homeland.
    Just yesterday, SOUTHCOM commander General Fraser testified 
regarding the Iranian threat in the hemisphere that 
``connections with Hezbollah and Hamas, who have been in the 
region for a number of years primarily still focused on 
supporting, conducting illegal activity to provide funding 
support and logistic support back to parent organizations 
within the Middle East.''
    The failed plot to assassinate a Saudi Ambassador on U.S. 
soil and the U.S.-led investigation into the Lebanese Canadian 
bank illustrate the potential links between Iran and Hezbollah 
with drug trafficking organizations in the hemisphere. This 
legislation requires the Secretary of State to use existing 
funds to create a tailored strategy to fight the aggressive 
actions of Iran and its proxies in the Western Hemisphere, 
thereby establishing a strong U.S. policy stance and protecting 
U.S. security interests.
    I want to thank also Mr. Smith for the next bill that we 
are going to be discussing, his Vietnam Human Rights Act, H.R. 
1410. Just yesterday, I met with the delegation of Vietnamese 
Americans led by our former colleague, Congressman Joseph Cao, 
who described the steady deterioration of human rights and 
religious freedom in Vietnam. Anyone who doubts the violations 
by the Hanoi regime just needs to ask Vietnamese democracy 
advocates, or Internet bloggers or ethnic minorities in the 
central highlands or Protestant, Catholic or unified Buddhist 
church leaders who dared to operate outside of state-imposed 
limits.
    As I said many times, the State Department's 2006 removal 
of Vietnam from the list of countries of particular concern for 
religious freedom was a major mistake that still needs to be 
corrected. The list I received yesterday of approximately 600 
political prisoners languishing in Vietnam's Gulag is a stark 
testament to the continued repression in that country.
    Capping non-humanitarian assistance to the Vietnamese 
regime until these ``Hanoi six hundred'' are unconditionally 
released, and religious and political freedoms improved, is the 
least that we can do. So thank you, Mr. Smith, for that 
legislation.
    I am also pleased to support the legislation of my friend 
from California, Mr. Berman's bill, H.R. 4041, the Export 
Promotion Reform Act, which he introduced with another member 
of our committee, Mr. Manzullo. The assessments and the 
strategy required by this bill could help to strengthen our 
commercial diplomacy overseas. So thank you for that bill.
    And finally, because Taiwan deserves observer status in the 
International Civil Aviation Organization, I strongly support 
the inclusion of Senate Concurrent Resolution 17 in today's 
markup. This committee and the House have supported similar 
resolutions in prior years. And I am glad for the continued 
bipartisan, bicameral support for Taiwan's status which will 
serve air safety around the world.
    Again, thanks to all of the members for their hard work 
that went into adoption of these measures, and I would like to 
recognize Mr. Berman for his remarks, thank you.
    Mr. Berman. Thank you very much, Madam Chairman. The 
process of voting first and then debating does shorten the 
time. I would like to yield a minute first to my colleague from 
Pennsylvania, Ms. Schwartz.
    Chairman Ros-Lehtinen. Ms. Schwartz is recognized.
    Ms. Schwartz. Thank you. This is really more a point of 
information for the chairwoman. Madam Chair, just to say my 
family did receive some insurance, we were successful in 
getting claims from my mother's grandparents, my great 
grandparents, who did have insurance, they were Austrians. I 
wanted to recognize that we did receive those funds--at least 
my father did and my sister. Those were complicated forms, I 
agree, but in fact, those claims were made and received, and my 
mother didn't live to see that happen, it was certainly to my 
family important to be able to receive that. Thank you.
    Mr. Berman. Reclaiming my time. I would like to thank you, 
Madam Chairman, for including H.R. 4041, the Expert Promotion 
Reform Act on today's agenda. Mr. Manzullo and I introduced 
this bipartisan noncontroversial legislation to help increase 
U.S. exports and create jobs for American workers. According to 
the GAO, 17 Federal agencies currently have export promotion 
programs. These programs would be much more effective with 
improved coordination, elimination of duplicative activities 
and more effective targeting. That's what our bill does. The 
improvements made by this bill would benefit many of the 
Nation's 266,000 exporting firms, more than 90 percent are 
small and medium-sized businesses, and in the process, that 
would help create new jobs.
    The Holocaust Insurance Accountability Act, I want to thank 
you for bringing up H.R. 890, as I noted in our recent hearing 
on this issue, time is of the essence for Holocaust survivors. 
This bill is important as to way to shine a light on the 
desperate situation for many survivors in our community and I 
support it.
    Madam Chairman, I also strongly support Senate Con. Res. 
17, which expresses a sense of Congress that Taiwan should be 
accorded observer status in the International Civil Aviation 
Organization. Taiwan's participation in the IKO as an observer 
would not only benefit Taiwan, but it would benefit the rest of 
the world as well as it helps ensure that IKO can fulfill its 
mission and address threats to aviation security.
    With Taiwan's air traffic controllers providing service to 
over 1 million flights a year, it is long past time for Taiwan 
to participate in the IKO.
    Madam Chairman, H.R. 3783, the Counter Iran in the Western 
Hemisphere Act by Mr. Duncan, requires the administration to 
prepare a strategy to address Iran's increasing presence in the 
Americas. This committee has heard significant testimony on 
this issue. And while the administration is fully engaged on 
this matter, a reminder of our heightened interest here is 
appropriate.
    H.R. 1410 as amended calls attention to the human rights 
situation in Vietnam. Despite the country's transition to 
greater economic freedom, religious and political freedoms for 
Vietnamese citizens remain limited. The bilateral relationship 
between the U.S. and Vietnam has deepened since diplomatic ties 
were established over 15 years ago, but the lack of sufficient 
progress in protecting basic rights and civil liberties in 
Vietnam remains a real impediment to closer cooperation the 
future. Madam Chair, just one question before I yield back, is 
it your vision that on the floor, these bills become separate 
items?
    Chairman Ros-Lehtinen. Sure.
    Mr. Berman. Thank you, I yield back.
    Chairman Ros-Lehtinen. Thank you, yes, they will. Mr. Smith 
is recognized to address his bill, H.R. 1410, to promote 
freedom and democracy in Vietnam.
    Mr. Smith. Thank you very much, Madam Chair, and I thank 
you, Mr. Berman, for strongly supporting this legislation and 
Mr. Berman for cosponsoring it. This is a bipartisan bill. 
Originally introduced by myself, Mr. Wolf, Zoe Lofgren, Loretta 
Sanchez and Mr. Royce. And our belief is that maybe the third 
time is the charm; this bill has passed twice in the House and 
has floundered and failed in the Senate through inaction. My 
hope is, given the fact the situation has markedly 
deteriorated, that will hopefully improve its chances so that 
we can send a clear unequivocal message to Hanoi that we are 
serious about human rights abuses.
    You mentioned 600 prisoners; it is amazing that leading up 
to the bilateral trade agreement, and the ascension into WTO in 
2006, there were all kinds of expectations that Vietnam would, 
indeed, matriculate from its heavy repression on religious 
freedom, its forced renunciation of the Christian faith that is 
imposed upon the Montagnard, and whether it be the unified 
Buddhist Church or the other forms of religious expression, all 
of which now are being heavily repressed, people who are out of 
prison are back in prison. As a matter of fact, there is a 
group called Bloc 8406, it was founded on April 8th, 2006. It 
closely mirrors Vaclav Havel's Charter 77.
    Bloc 8406 has signers page after page of great human rights 
leaders, religious leaders, who put pen to paper and signed 
their name. That has become the hit list for the secret police 
in Vietnam. They have, one by one, rounded up these 
individuals, harassed them, given them long prison sentences 
simply for espousing fundamental human rights.
    Vietnam is a signatory, and has acceded to the 
International Covenant on Civil and Political Rights. It is a 
matter of international law, they have signed on the dotted 
line themselves, and these rights are being violated with 
impunity.
    The Vietnam Human Rights Act lists a number of actually 
doable, deliverables: Substantial progress in releasing 
political prisoners, in respecting the rights of freedom of 
expression; releasing independent journalists and labor 
activities who are targeted. We had a $20-billion trade 
relationship in 2011 with Vietnam. Don't expect a labor union 
to exist in Vietnam because they are crushed, not unlike the 
way they are crushed in the People's Republic of China.
    In the area of human trafficking, they have gotten worse, 
particularly in the area of labor trafficking. The first case 
that was brought against Vietnam and individuals in the 
Government of Vietnam, pursuant to my law, the Trafficking 
Victims Protection of 2000, was a sweatshop in American Samoa 
where hundreds of people were abused, Vietnamese individuals, 
and they have never, never provided the compensation prescribed 
by the judge to those individuals that they had so cruelly 
abused.
    We had a hearing, Madam Chair, on January 24th, one in a 
long series of human rights hearings, and we heard a large 
number of NGOs. And we heard from one woman who was trafficked 
to Jordan and talked about how the government was complicit in 
that trafficking scheme. And we know that that is happening all 
throughout Asia, and really around the world. So it is a very 
serious trafficker, and as you pointed out, Madam Chair, today, 
Vietnam ought to be reinstated as a Country of Particular 
Concern pursuant to the International Religious Freedom Act, 
because they have so violated religious freedom.
    On one of my trips to Vietnam, Madam Chair, and then I will 
conclude, I went from Hanoi to Hue to Ho Chi Minh City, there 
were about 50 different dissidents and religious prisoners, 
many of whom were under house arrest. Father Ly was out of 
prison, having been very severely persecuted, under house 
arrest, he is now back, as are so many others in prison and 
being abused, simply because of their beliefs in God or their 
beliefs in human rights and democracy, or both.
    This legislation says that we will freeze at 2011 levels 
non-humanitarian assistance to the Government of Vietnam. It is 
a modest penalty, extraordinarily modest penalty, because we 
will still be providing foreign aid, but we say have got to set 
limits. We have to have some kind, just not just the power of 
exposing these abuses but there needs to be a penalty phase. It 
has to pass down to the committee, and my hope is the House 
will join us in this. We stand in solidarity with the human 
rights activists. I have met so many of them, I know you have, 
I met them in Vietnam, and I have met them in the United States 
and elsewhere.
    They need friends and advocates. Vietnam is going 
backwards. On the day they got the WTO that they were so 
desperately seeking with the United States, that day was the 
pivot point of moving in the opposite direction. They gave 
every sign. Many of those thought if we just trade, somehow 
they would just matriculate from a dictatorship to a democracy. 
We are very well-meaning people, unfortunately, that belief has 
been betrayed by the Government of Vietnam and we need to have 
our eyes completely wide open. Things have gotten demonstrably 
worse in Vietnam. I thank the chair.
    Chairman Ros-Lehtinen. Thank you. Mr. Faleomavaega is 
recognized.
    Mr. Faleomavaega. Thank you, Madam Chair. There is no one 
in this committee that I have the utmost respect in my 
colleague and good friend, Congressman Smith, not only as the 
chief author of this bill, but we have a little disagreement 
here in principle. As a Vietnam veteran I have a very different 
perspective concerning the provisions of H.R. 1410. In 1967, I 
was deployed to Vietnam; in 1968, I was there in Tet offensive 
and not knowing everyday if I was going to come back in a body 
bag or a maimed and wounded soldier for the rest of his life.
    On the matter of human rights, the United States cannot 
assume the moral high ground when it comes to Vietnam. From 
1961 to 1971, 10 years, the United States sprayed more than 11 
million gallons of Agent Orange in Vietnam, subjecting millions 
of innocent Vietnamese civilians to dioxin, a toxin known as 
one of the deadliest chemicals made by man. Despite the 
suffering that has occurred ever since, there seems to be no 
real interest on the part of the United States to clean up the 
mess that we created, subjecting the Vietnamese people, both 
North and South Vietnamese people to this deadly toxin that we 
still have not been able to correct.
    We drop millions of pounds of bombs on the people, the 
citizens of Laos and Cambodia, that we still have not been able 
to clean up that mess. So instead we spend our time offering up 
language like this, which fails to make anything right. While I 
can appreciate that more than 1 million Vietnamese Americans 
have strong feelings about the Vietnam War. The fact is, is 
that it is time for to us rebuild our relationship with Vietnam 
just like we did with Germany and Japan after World War II.
    Regrettably, I regret to say, the provisions of H.R. 1410 
has made an adverse impact on our efforts. 1410 purports to 
promote the development of freedom and democracy in Vietnam but 
fails its purpose. As noted in the Congressional Research 
Service, the bill could kill the recent warming of bilateral 
political and security ties and could weaken economic reform in 
the ongoing domestic political battles inside Vietnam.
    Put another way, Madam Chair, this bill is not in the best 
interest of the United States or the Vietnamese American 
community. H.R. 1410 is shortsighted in its approach, as 
contrary to the efforts of the Clinton and the Bush and the 
Obama administrations which have sought to strengthen our 
partnership with this important country in Southeast Asia.
    Long after the Vietnam War, the United States is now about 
the business of coordinating a multi country diplomatic 
pushback against Chinese encroachment, in the oil rich and 
strategically important South China Sea. The conversations with 
the Department of State, they share my concerns that the 
measures of this bill could adversely affect our security 
relationship with Vietnam as well as our ability to work with 
Vietnam on trafficking in persons.
    Moreover, the sections of the bill significantly altered 
the standard by which the Government of Vietnam's efforts to 
combat trafficking in persons are measured, and restricts non-
humanitarian assistance to Fiscal Year 2011 levels pending a 
certification on an annual report by the President of the 
United States.
    The TIP created a set of minimal standards to assess the 
government's efforts, these standards are based on the agreed-
upon, international protocols. This bill goes beyond the 
protocols and holds the Government of Vietnam to a higher 
standard. By holding the Government of Vietnam to a higher 
standard that is not applicable to any other foreign 
government, nor to the United States Government's own efforts, 
this bill would have an adverse impact on our ability to 
connect diplomacy with the Government of Vietnam on improving 
our anti TIP efforts.
    So while Vietnam may have work to do in improving its human 
rights records, we all know that. We also have work to do. 
First and foremost, we need to work on being fair. We need to 
work on treating Vietnam the same as we should be treating 
other foreign governments. Simply put, it is wrong to hold 
Vietnam to a higher standard than the rest of the world.
    Also, let us be clear about the sincere and meaningful 
progress Vietnam has made, let us not cherry-pick bits of truth 
and put forward old data. This bill is based on old data, the 
same data that has been put forward over and over again by 
those who have never visited Vietnam. After serving in Vietnam 
in 1967, Madam Chair, I returned some 40 years later, becoming 
chairman on the subcommittee on Asia Pacific.
    All I can say is the Vietnam I fought against is not the 
Vietnam I know today. So I encourage my colleagues to rethink 
Vietnam and pursue a path of cooperation that does not 
undermine the progress we are making.
    I also ask that the Embassy of Vietnam statement, Madam 
Chair, the following excerpts from the State Department, the 
International Religious----
    Chairman Ros-Lehtinen. Without objection.
    Mr. Faleomavaega [continuing]. To be made part of the 
record. Madam Chair, thank you.
    I fully realize my good friend from Virginia and from New 
Jersey and the gentleman from California, we all understand 
Vietnam, yes, has problems, has human rights, so are many other 
countries. All I am asking is let's be fair. If we are going to 
put this standard on Vietnam, let's do it on Saudi Arabia, and 
look at all these other countries that are non democratic. That 
is all I am seeking here, Madam Chair, and again, thank you and 
I yield back.
    [Note: The information referred to is not reprinted here 
but is available in committee records.]
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Smith. Madam Chair, is there time to respond?
    Chairman Ros-Lehtinen. I would be glad to give you the 
time, let me just go with the people who are pending.
    Mr. Duncan is recognized to explain the bill that he has 
put forth, and that we have already reported favorably, H.R. 
4783, a Comprehensive Strategy to Counter Iran's Presence and 
the Western Hemisphere.
    Mr. Duncan. Thank you, Madam Chairman, Ranking Member 
Berman, Madam Chair, Chairman Royce, the chair of the 
subcommittee, heard the bill, my fellow colleagues, 
specifically Mr. Higgins and his staff, he was the first 
cosponsor of the bill. I certainly appreciate your assistance 
in helping with this issue, and the staffs, a shout out to 
them.
    I appreciate the bipartisan cooperation we have received in 
the 72 Members who have cosponsored this bill. As you all know 
from the hearings this committee has held, Iran has steadily 
been increasing its presence in the Western Hemisphere by 
pursing economic, diplomatic and security agreements doubling 
the number of Embassies in the region and engaging countries 
with diplomatic visits and strategic communications.
    Since 2003, Iran has defied the U.S. in international 
events that it end their country's illicit nuclear enrichment 
program. Iran's defiance, their deplorable anti Israeli 
rhetoric, and their continued sponsorship of terrorism creates 
a recipe for instability worldwide. Iran's actions in our 
neighborhood represent a real threat to our safety and 
security. Our neighbors must recognize that supporting 
Hezbollah, transferring nuclear technology to Iran or assisting 
the Iranian Government in evading sanctions is a danger not 
only to the United States, but to the world as a whole.
    I want to thank the Mexican Ambassador for visiting with me 
and many other members on the committee to help set the 
narrative that we are allies and friends in this region. It is 
our neighborhood, and we have got to work together to thwart 
the threat that is posed by Iran.
    Last year's foiled Iranian assassination plot again the 
Saudi Ambassador of the U.S., and the recent testimony of the 
Director of International Intelligence Senate Select Committee 
on Intelligence present convincing evidence for concern. Recall 
that in 2002, the FBI testified before the Senate Select 
Committee on Intelligence that investigations today continue to 
indicate that many Hezbollah subjects based in the United 
States have the capacity to attempt terrorist attacks here, 
should this be a desired objective of the group.
    Congress has approved trillions of dollars for military 
operation in the global war on terror. Yet Iran has been 
establishing a presence here in our neighborhood from which it 
can exercise influence. With tensions building between Iran and 
the United States, we have a responsibility to take steps now 
to guard against the threats that Iran could pose to American 
U.S. soil, to Americans on U.S. soil.
    We do have a precedent of Iranian terrorist attacks in this 
hemisphere. In March 17th will mark the 20th Anniversary of the 
1992 bombings of the Israeli Embassy in Buenos Aires, 
Argentina, which killed 29 civilians and left 242 wounded. The 
largest terrorist attack in the Western Hemisphere prior to the 
9/11 terrorist attacks.
    We cannot let this type of tragedy at the hands of Iran or 
its proxies occur in our hemisphere. I believe the U.S. Needs 
to do a better job in engaging with our friends in the region 
developing broader cooperation on threats posed to the entire 
hemisphere, protecting American interest in the region and 
securing our borders to ensure Iranian operatives cannot enter 
our country. This bill provides a necessary first step to 
countering Iran's hostile presence in our hemisphere. Again, I 
appreciate the support and I yield back.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Connolly is 
recognized.
    Mr. Connolly. Thank you, Madam Chairman. And I want to 
thank you and the ranking member for your leadership in today's 
markup and I want to thank you again for your willingness to 
consider several amendments to the freedom and democracy in 
Vietnam legislation. I really appreciate it.
    I also want to say to my friend from New Jersey, I was 
delighted to hear that this was a bipartisan bill. Like my 
friend from New Jersey, I have been to Vietnam, both north and 
south. Like my friend from New Jersey, I have a large 
Vietnamese American constituency. Like my friend from New 
Jersey, I have spoken out on human rights on Vietnam. Like my 
friend from New Jersey, and I am a member and active member of 
the Human Rights in Vietnam caucus.
    When I was the chairman of Fairfax County, one of the 
largest counties in the United States, I had legislation passed 
that required that flying of the Republic of South Vietnam's 
flag along with the current Vietnamese flag to honor the men 
and women who immigrated from Vietnam to Northern Virginia.
    And so my friend I know must understand my disappointment 
that I was not added as an original cosponsor to his 
legislation. We made several attempts to do that, and perhaps 
there was a miscommunication. And if my friend would not 
object, I would ask Madam Chairman unanimous consent that I be 
added to the legislation.
    Chairman Ros-Lehtinen. Without objection.
    Mr. Connolly. I thank the chair.
    Mr. Smith. Happy to have you.
    Mr. Connolly. I want to applaud Mr. Smith for his 
leadership and passion on this subject. It is important that we 
speak up. The words of our colleague from American Samoa are 
certainly words we must take cognizance of. He makes some fair 
points, but not to speak out about blatant abuses still going 
on in Vietnam, and as Mr. Smith indicated, in some cases, 
actually worsening against religious freedom, against the free 
expression of ideas, against a free press, I think would be a 
dereliction of duty on our part as a committee and as a 
Congress. And so, I applaud his leadership and I join in it.
    And finally, Madam Chairman, as the cochairman of the 
Taiwan caucus, I am also delighted that we are passing this 
bill to include Taiwan and the family of nations in 
international machinery. I think it is very important for 
Taiwan, which is a terribly important economy for the United 
States and world trade. This recognition is long overdue. And 
again, I thank the chairman of the committee for her leadership 
in that regard. And with that I yield back.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Rohrabacher 
is recognized.
    Mr. Rohrabacher. Just a few thoughts about our friend from 
American Samoa, and I certainly respect the fact that he risked 
his life for us in Vietnam back in 1967. And I was not in the 
military in 1967, but I was in Vietnam in 1967 with Montagnards 
in the central highlands, and those people today are suffering 
great repression, and there is no reason whatsoever that 
whatever happened back in 1967 should make us any less 
committed to the freedom, religious freedom of those 
Montagnards who now have, I guess, reached out to Evangelical 
Christianity in a very important way in their lives, and have 
been brutally suppressed because of it.
    Vietnam offers us a classic example of why the argument 
that the more we engage with a dictatorship, and the more 
prosperous we make a dictatorship become, the more likely it is 
that they will become democratic and more liberal. That is the 
``hug-a-Nazi, make a liberal theory'' that I have tried to 
refute so many times here. What has happened in Vietnam we have 
reached out to the Vietnamese Government in many ways. We now 
have Vietnamese able to penetrate our market. You will find 
goods made in Vietnam throughout our marketplace in the United 
States, yet the repression of the people remains the same. It 
is up to us to maintain our standards of freedom and democracy 
in dealing with these Third World dictatorships. There are 
people who have no hope if it is not for the hard work of those 
of us in Congress, especially people like Congressman Smith who 
has dedicated his life to human rights, and I now very happily, 
and I support his efforts on the human trafficking as well as 
his Vietnam measure within this bill. I will now yield to him 
the balance of my time.
    Chairman Ros-Lehtinen. Mr. Smith is recognized.
    Mr. Smith. I thank my good friend for yielding. I just 
think the record needs to be very clear. My good friend, Eni 
Faleomavaega, mentioned the problem of dioxin which was in 
Agent Orange. I would note for the record the first amendment, 
the very first amendment that I cosponsored wasn't my amendment 
but I was the Republican on it, it was Tom Daschle's in the 
Veteran Affairs Committee 1981, it would have provided service 
connection, disability compensation for Agent Orange-afflicted 
Vietnam veterans. We lost. People didn't think it was real 
then. We all know how real it is now and it is a very serious 
problem.
    Our legislation specifically exempts assistance for 
environmental remediation of dioxin contaminated sites and 
related health activities. Last year, or this year, fiscal 
year, we are spending $15 million in Vietnam to help people who 
have been sickened by dioxin and to remediate sites. This is a 
very, I think, focused piece of legislation that speaks to our 
economic types of relationships, where we are giving U.S. 
foreign aid. We are not dictating to them, we are saying these 
are universal principles that need to be followed.
    And frankly, Vietnam has acceded to all these human rights 
norms and many treaties. Live up to them, don't persecute and 
torture your own people and then expect to us provide U.S. 
foreign aid over which we have the power of the purse and just 
let that run and flow untouched. So it is to get their 
attention, that we mean business, and that there is a penalty.
    So when you say, as mentioned by my good friend about why 
single out Vietnam? We single out many countries on this 
committee when it comes to human rights issues and humanitarian 
issues. I think it is better when we do it country-specific. 
Yes, let's have thematic bills like religious freedom and 
trafficking that focuses on every country of the world with 
specific delineation for individuals with regards to their 
records. But this one says we are serious, they are getting 
worse, much worse, in this Congress, in a bipartisan way.
    And again, I thank the distinguished gentlelady who is a 
champion of human rights for bringing this bill to the 
committee, Howard Berman and others for supporting it so 
strongly, and, of course, Mr. Connolly, who is now on as a 
sponsor, I thank him for that, and of course, I want to thank 
Dana Rohrabacher.
    We have to be serious. I asked the members to read the bill 
very carefully, it wasn't written overnight on the back of an 
envelope. This is very well thought out, we have had the 
hearings on it, so with great respect to my friend, Mr. 
Faleomavaega, I do hope we get strong support for it when it 
gets to the floor. Otherwise the people who languish in the 
prisons, just like they do in Cuba and China and so many other 
places in the Middle East and in African countries where 
dictatorship, reign, we then abandon them. We do have a voice. 
We need to use it.
    Chairman Ros-Lehtinen. Thank you so much. The gentleman 
from New York, Mr. Engel, is recognized.
    Mr. Engel. Well, thank you, Madam Chairman. I rise in 
strong support of the en bloc amendment and I would like to 
briefly discuss a few of the bills. I would like to share my 
thoughts on the Iran and the Western Hemisphere bill. As a 
member of this committee, I pay very close attention to the 
actions of Iran anywhere in the world they are the principle 
threat to peace and stability at this time, the leading 
supporter of terrorism around the world and they demand our 
vigilant attention.
    Thus as the ranking member of the Western Hemisphere 
Subcommittee, I work with our subcommittee chairman, Mr. Mack 
to ensure that we are aware of potentially nefarious activities 
of Iran in our region. This committee has held numerous 
briefings with the administration and the Intelligence 
Community on Iran. And without discussing the content of these 
briefings, I am glad that the executive branch is as focused as 
we are on the challenge. The bill we take up today strives to 
address the challenge of Iran in the Western Hemisphere. When I 
was chair of the Subcommittee on the Western Hemisphere, we 
held the hearings and briefings and discussions on Iran and 
what they are attempting to do in the Western Hemisphere.
    So I would like to thank all those involved, the chair, 
ranking member of the full committee, and of the TNT 
Subcommittee which first marked up the bill, and Mr. Duncan, 
the author of the bill. With their flexibility and willingness 
to reach a compromise, this is a better piece of legislation, 
and it has significantly improved and will have my support and 
my vote.
    I would like to also briefly address the Holocaust 
insurance legislation. I will never forget meeting my 
constituent, Mr. Solofish, who had an actual copy of his 
father's life insurance policy which was never paid by his 
European insurance company. I believe he and the other people 
were simply treated unfairly in the ICHEIC process. And I am 
pleased to support this bill which gives them an opportunity to 
pursue what is rightfully theirs.
    I welcome the guests we have in the front row, and assure 
you that there are many, many of us of us in this committee 
that will keep on this and you will never be forgotten until 
justice is done, so I want you to know that, and it is 
bipartisan.
    I would like to offer my support for Taiwan joining the 
International Civil Aviation Organization. Taiwan deserves to 
be in the international fora and organizations, and we cannot 
afford to play games when it comes to aviation safety as well. 
Many countries with large aviation sectors need to be in such 
organizations and this resolution has my strong support.
    Finally, I want to talk about the Vietnam human rights 
bill. I am sorry Mr. Smith has left, but as I said to him 
personally many times there is no one in this Congress or any 
other Congress who champions human rights more than Mr. Smith 
who feels it in his heart and his gut and goes with what is 
right. I know Vietnam is an important country, and I know in 
our disputes with China and the disputes that Vietnam has with 
China, how the United States has been working with Vietnam, and 
Vietnam is a potentially strong ally in our fight against 
Chinese hegemony in the region. But I do think Mr. Smith is 
quite right when he says that there has to be a basic standard. 
If we are going to normalize our relations we have with 
Vietnam, then we expect certain things from them as well. And 
human rights is very, very basic.
    So I think it is very important that we send a strong 
message by talking about Vietnam human rights and by supporting 
this bill.
    So Madam Chair, again, I support the en bloc amendment and 
it has my strong support and I yield back the balance of my 
time.
    Chairman Ros-Lehtinen. Thank you so much. Mr. Ackerman is 
recognized.
    Mr. Ackerman. Thank you, Madam Chair. Let me first commend 
you for your passion and for your pursuit of the legislation 
that you have introduced, the Holocaust Insurance 
Accountability Act. I think none can dispute the fact that you 
have been a champion of justice for so many in so many 
different places in the world. And nobody, nobody can help but 
feel the pain and the injustice done to those people who have 
claims that have not been settled due to the Holocaust.
    I feel that concern as much as any. Those of us who have 
family members, who lost not just property, but family members 
themselves during that darkest hour of humankind, has to have 
sympathy for what these people are going through. But let me 
also bring up some concerns that I have with us trying to 
remedy this injustice, because I think it would be unfair to 
let that go unsaid.
    There was a time when we had the ability to settle on most 
of the claims. We did that as part of an understanding in an 
agreement between the United States and others, an agreement 
that was made considering the interests of the majority of 
people whose claims could be settled.
    Mr. Smith just mentioned, as he does often, and as you do 
and so many others on the committee, Madam Chair, the 
importance of countries keeping to their international 
agreements because their integrity is on line and at stake 
before the international community. How difficult would it be 
for us not to be able to say at this particular moment in time, 
to our friends in Egypt, that it is important even despite the 
turmoil that is going on there that they must keep to their 
international commitments that they made in their peace 
agreement with the State of Israel?
    And they could say they have justice issues before them and 
don't want to keep to that claim anymore, but they have made 
that. How difficult would it be for us in our ongoing desire 
and wish to see a settlement in dispute between the Israelis 
and Palestinians and see justice done there? Part of that 
problem there is a continuum of claims that are brought up in a 
yes-but fashion by the Palestinians that could go on for 
millenniums. It is always ``yes but,'' pocket what you can get 
as an offer and keep to pursuing.
    One of the demands that we have is an end to all claims 
when the Palestinians settle up with the Israeli's. So once 
that agreement is made on an international basis and all the 
parties sign on, that there comes a time that the Palestinians 
agree that claims are not going to come up in the future. And 
justice will be done to some people in that case, I would 
assume, but sometimes processes have to end. This is a matter 
of conflicting justices and I would never oppose the pursuit of 
justice on behalf of the people who seek restitution because of 
claims that they have, but I would certainly be remiss if I 
didn't mention that we do this not cost free, that we pay the 
price of turning our country into violators of our own word, we 
do that at the risk of attempting to change what I understand 
is a very important principle of the Constitution of the United 
States, and that is, we cannot tell a separate branch of 
government, the executive branch what to do.
    And that certainly President Clinton, President Bush, and 
no American President would cede that this Congress can strip 
away their rights guaranteed by the Constitution as a separate 
branch of government. So we are faced with conflicting senses 
of justice. How do you settle an international dispute and 
agree not to pursue in the future further claims? It is so 
difficult. These people have been done a tremendous injustice. 
They have a right to pursue it. As the people who lost 
relatives in 9/11, when we settled up with the airlines, were 
told that they can pursue their cases, but outside of that, 
they would not have the support of the U.S. Government if they 
didn't settle at the time of settling up when everything was 
put on the table. These people have been gypped, they have been 
robbed, they have been made double victims, victims of the 
Holocaust and victims of the loss of their property, and 
despite those concerns, Madam Chair, I want to salute you in 
the personal sense of pursuing justice that we all want to see 
done to all of the victims of the Holocaust, and I thank you 
very much.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Ackerman. 
Mr. Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chair. Madam Chair, I have had 
to wait a while to speak, but I have not had to wait nearly as 
long as the Holocaust survivors have had to wait for justice. 
Madam Chair, let me first extend my deepest thanks to you for 
bringing the Holocaust Insurance Accountability Act, now the 
Tom Lantos Justice for Holocaust Survivors Act before this 
committee. It has been a privilege to co-sponsor this 
legislation with you on behalf of the thousands of Holocaust 
survivors that we represent.
    For the survivors in Florida's 19th District and throughout 
the country, time is of the essence. It is no secret that the 
Holocaust survivor population is among our most vulnerable. 
When this committee held a hearing on the rights of survivors 
several months ago, I spoke of the Oma Shoah remembrances I 
have been attending for years and spoke of the crowds that used 
to fill the events every year. There are now more and more 
empty seats. These survivors deserve to live out their lives 
with dignity, they deserve proper health care, access to home 
care, and simple things that we take for granted, like 
transportation to doctors' appointments, to the grocery store, 
and they deserve to not have to choose between buying those 
groceries or paying for prescriptions.
    Madam Chairman, this bill is about justice, plain and 
simple. It is about giving survivors the opportunity to pursue 
justice for the wrongs of the past. When we last had a hearing 
on this issue, we heard from survivors, each told a remarkable 
story. We heard from David Schaecter, who joined us then and is 
here with us today. David sat before this committee and told us 
his family's story, and there are so many others just like his.
    At that November hearing, I asked David and the other 
survivors what the most important message they had to impart to 
young people that they speak with. It is, they summed up, the 
choice between right and wrong. The generation of children, 
this generation of children is the last generation that will 
hear the stories of Holocaust survivors directly from those who 
lived through it. It is our job here to carry out their message 
of right and wrong and, Madam Chairman, that is what we did 
here today by passing this bill. Some 75 percent of the 
Holocaust survivors in America live in poverty, 75 percent. 
Today we gave these men and women at least the start toward a 
chance to live out their lives with the dignity they deserve. 
This issue is not about giving peace to insurers or protecting 
foreign governments, it is not about going to court or pursuing 
opportunities for future reparations, it is about providing 
peace and security to those remaining Holocaust survivors of 
our communities who have suffered the most horrific injustices.
    And finally, Madam Chairman, I can think of a no more 
fitting tribute than to name this bill after a Member of this 
body, chair of this committee, who understood the plight of 
survivors better than anyone because he lived it himself, Tom 
Lantos. It is a true honor to cosponsor this bill in his name, 
the only Holocaust survivor to serve in the United States 
Congress. I would like also to thank Mrs. Annette Lantos for 
her continued courageous work on behalf of those suffering 
around the world.
    Madam Chairman, I applaud my colleagues for supporting this 
legislation on behalf of Congressman Lantos. It is important 
legislation for David and the other survivors that we are 
privileged to have join us here today. It is important 
legislation for my constituents Jack Rubin, Alex Moskovic and 
so many others, and this moment, Madam Chairman, this moment is 
vitally important for all of the survivors who, quite simply, 
deserve more than anything else the pursuit of justice. Thank 
you, and I yield back.
    Chairman Ros-Lehtinen. Well done. Thank you very much, Mr. 
Deutch. Mr. Higgins is recognized.
    Mr. Higgins. Thank you, Madam Chair, for your highly 
respectful and inclusive leadership of this committee. 
Congratulations to the survivors. I wanted to address H.R. 
3783, sponsored by Mr. Duncan, and while the national attention 
is focused on the brutality of the Assad regime in Syria and 
the delirious defiance of Ahmadinejad in Iran, this bill also 
addresses the malignancy of the proxies, specifically 
Hezbollah. Hezbollah is the party of God, it is a Shi'a Muslim 
group that is committed to violent Jihad, including the 
destruction of the State of Israel.
    I think what is most of concern here is that they not only 
have a presence in the Western Hemisphere, they have a presence 
in North America and in the 16-nation region of Latin America. 
Hezbollah has a presence in 15 American cities, including four 
major cities in Canada. We have been told repeatedly that we 
shouldn't be all that concerned about their presence because it 
is limited to fund-raising activity. That is not comforting.
    So this bill, I think, is not preemptive, but it is 
precautionary, and I think it is a wise step in the direction 
of monitoring the activity of Hezbollah and other groups that 
act as a proxy for Venezuela, for Iran, and for Syria. With 
that, I will yield back. Thank you.
    Chairman Ros-Lehtinen. Thank you so much, and let the 
record reflect that Mr. Ackerman is a yes vote, it was a voice 
vote, but Mr. Ackerman is a yes vote on the Holocaust survivors 
bill, H.R. 890, that was considered en bloc. Neither hearing 
nor seeing further requests for recognition, the committee 
stands adjourned, and thank you one and all.
    [Whereupon, at 12:15 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Prepared statements of the Honorable Connie Mack, a Representative in 
                   Congress from the State of Florida

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


     Prepared statement of the Honorable Eni F.H. Faleomavaega, a 
             Representative in Congress from American Samoa

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Prepared statements of the Honorable Ann Marie Buerkle, a 
         Representative in Congress from the State of New York


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
